Audit of USAID/Ethiopia’s Distribution of P.L. 480
Title II Non-Emergency Assistance in Support of Its
Direct Food Aid Distribution Program
Audit Report No. 4-663-04-002-P
November 21, 2003




            PRETORIA, SOUTH AFRICA
November 21, 2003


MEMORANDUM
FOR:           USAID/Ethiopia Director, William Hammink

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Ethiopia’s Distribution of P.L. 480 Title II Non-
               Emergency Assistance in Support of Its Direct Food Aid Distribution
               Program (Report No. 4-663-04-002-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those comments,
in their entirety, as Appendix II in this report.

This report has five recommendations. In response to the draft report, USAID/Ethiopia
concurred with and included corrective action plans and target completion dates for all the
recommendations. In addition, the Mission also concurred with Recommendation Nos. 1
and 3, which contained potential monetary savings totaling $120,671. Therefore, we
consider that management decisions have been reached on all five recommendations.
Please provide the Bureau for Management, Office of Management Planning and
Innovation with evidence of final actions in order to close the recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                         1
[This page intentionally left blank.]
Table of   Summary of Results………………………………………………………. 5
Contents   Background……………………………………………………………….. 5

           Audit Objective…………………………………………………………… 6

           Audit Findings…………………………………………………………….                                                                    6

               Did USAID/Ethiopia, through its monitoring and oversight
               activities, ensure that P.L. 480 Title II non-emergency assistance
               programmed for direct food aid distribution programs was
               delivered to the intended beneficiaries in accordance with existing
               agreements?........................................................................................   6

                    CRS Commodity Loss and Claim Reports Dating Back to 1993
                    Need to Be Resolved……………………………………………. 7

                    Monitoring of REST’s Commodity Loss and Claim Reports
                    Needs to Be Increased…………………………………………... 8

                    Monitoring of CRS’ and REST’s Warehouses and Distribution
                    Centers Needs to Be Resumed………………………………….. 11

           Management Comments and Our Evaluation…………………………….. 14

           Appendix I – Scope and Methodology……………………………………                                                          15

           Appendix II – Management Comments…………………………………... 17

           Appendix III – Catholic Relief Services’ Commodity Loss and Claim
               Reports Dating Back to 1993……………………………………….. 23




                                                                                                                          3
[This page intentionally left blank.]




                                        4
Summary of   The intent of Public Law 480, which is the statutory authority for the Title II “Food
Results      for Peace” Program, is to promote food security in the developing world through
             humanitarian and developmental uses of food assistance. Food security is satisfied
             when a nation’s people have sufficient food to meet their dietary needs. (See page
             5.)

             The Regional Inspector General, Pretoria conducted this audit to determine if
             USAID/Ethiopia, through its monitoring and oversight activities, ensured that food
             aid commodities reached the intended beneficiaries in accordance with existing
             agreements. (See page 6.)

             The audit showed that USAID/Ethiopia generally ensured that non-emergency and
             non-monetized food aid commodities reached the intended beneficiaries in
             accordance with existing agreements. However, the audit also identified some
             activities where monitoring could be improved: (a) Catholic Relief Services’ (CRS)
             commodity loss and claim reports dating back to 1993 needed to be resolved; (b)
             monitoring of Relief Society of Tigray’s (REST) commodity loss and claim reports
             needed to be increased; and (c) monitoring of CRS’ and REST’s warehouses and
             distribution centers needed to be resumed. (See pages 6-14.)

             This report contains five recommendations to help USAID/Ethiopia improve its
             monitoring and oversight activities over CRS’ and REST’s implementation of the
             Title II food aid distribution program. (See pages 8, 11, and 14.)

             In response to the draft report, USAID/Ethiopia concurred with all five
             recommendations contained in the report. The Mission included corrective action
             plans and target completion dates for all five recommendations. Therefore, we
             consider that management decisions have been reached on all five
             recommendations upon final report issuance. (See page 14.)


Background   The Agricultural Trade Development Assistance Act of 1954 (Public Law 480 or
             P.L. 480), as amended, is the statutory authority for the Title II “Food for Peace”
             Program. The intent of the legislation is to promote food security in the developing
             world through humanitarian and developmental uses of food assistance. Food
             security is satisfied when a nation’s people have sufficient food to meet their dietary
             needs.

             USAID’s Title II non-emergency program in Ethiopia is administered by
             USAID/Ethiopia’s Food and Humanitarian Assistance Office. The Catholic Relief
             Services (CRS) and Relief Society of Tigray (REST) are two of the seven
             cooperating sponsors implementing USAID/Ethiopia’s Title II direct food aid
             distribution program activities, which involved the distribution of non-emergency
             food commodities with an estimated value of $13 million in fiscal year 2002.

             At the time of our fieldwork, in July and August 2003, CRS, together with its
             implementing partners, the Missionaries of Charity and the Organization for
                                                                                                  5
                 Social Services and HIV/AIDS,1 was managing a general relief program in
                 several regions of Ethiopia. In fiscal year 2002, the approved quantities of
                 USAID-donated commodities for this program included $4.2 million in corn-soya
                 blend, bulgur wheat, vegetable oil, lentils, rice, and wheat. The program
                 supported welfare institutions that served the elderly, AIDS patients, lepers,
                 orphans, physically and mentally ill, and poor mothers without family support.
                 On the other hand, REST was managing the food for work program in the Tigray
                 region of Ethiopia with approved quantities of USAID-donated commodities in
                 fiscal year 2002 totaling $4.2 million in vegetable oil and wheat. The
                 development interventions executed through the program included reforestation,
                 soil and water conservation, and diversion weir.



Audit            This audit was one of a series of audits which the Office of Inspector General
Objective        conducted worldwide of USAID’s monitoring of Title II non-emergency
                 assistance in support of its direct food aid distribution program.

                 The audit was conducted to answer the following question:

                 •     Did USAID/Ethiopia, through its monitoring and oversight activities, ensure
                       that P.L. 480 Title II non-emergency assistance programmed for direct food
                       aid distribution programs was delivered to the intended beneficiaries in
                       accordance with existing agreements?

                 Appendix I contains a discussion of the audit's scope and methodology.



Audit Findings   Did USAID/Ethiopia, through its monitoring and oversight activities, ensure
                 that P.L. 480 Title II non-emergency assistance programmed for direct food
                 aid distribution programs was delivered to the intended beneficiaries in
                 accordance with existing agreements?

                 Through its monitoring and oversight activities, USAID/Ethiopia generally
                 ensured that Title II non-emergency food aid was delivered to the intended
                 beneficiaries in accordance with existing agreements. To maintain accountability
                 over food commodities and help ensure that they reached the intended
                 beneficiaries, Mission staff conducted periodic site visits to the cooperating
                 sponsors’ warehouses and distribution centers. Additionally, the Mission staff
                 reviewed relevant documents such as commodity/recipient status reports and
                 commodity loss reports. Furthermore, they held monthly meetings with the
                 cooperating sponsors to discuss issues relating to Title II programs. Mission staff
                 also interviewed beneficiaries to get their opinion on matters such as food-ration
                 size, distribution process, and misuse of commodities.



                 1
                     Human Immunodeficiency Virus/Acquired Immune Deficiency Syndrome
                                                                                                  6
However, the audit identified the following activities where monitoring could be
improved:

      •    Catholic Relief Services’ (CRS) commodity loss and claim reports dating
           back to 1993 needed to be resolved;

      •    monitoring of Relief Society of Tigray’s (REST) commodity loss and
           claim reports needed to be increased; and

      •    monitoring of CRS’ and REST’s warehouses and distribution centers
           needed to be resumed.

These activities are discussed in greater detail below.

CRS Commodity Loss and Claim Reports
Dating Back to 1993 Need to Be Resolved

Contrary to Title 22 of the Code of Federal Regulations, the Mission did not
regularly follow up and resolve CRS’ commodity loss and claim reports in a
timely manner. The problem occurred because the Mission’s Food and
Humanitarian Assistance Office (FHA) decreased its monitoring of CRS’
commodity loss and claim reports. As a result, commodity loss and claim reports
totaling approximately $89,1531 have not been resolved in a timely manner and
have remained open for years.

Title 22 of the Code of Federal Regulations, section 211.9 (22 CFR 211) states
that:

           If a cooperating sponsor causes loss or damage to a commodity,
           monetized proceeds or program income through any act or
           omission or failure to provide proper storage, care and handling,
           the cooperating sponsor shall pay to the United States the value of
           the commodities, monetized proceeds or program income, lost,
           damaged, or misused, unless AID determines that such improper
           distribution or use, or such loss or damage could not have been
           prevented by proper exercise of the cooperating sponsor’s
           responsibility.

USAID/Ethiopia did not regularly follow up on and resolve CRS’ commodity loss
and claim reports dating back to 1993, reports that they had taken over from the
previous Mission management. In 2001, according to FHA’s Acting Loss/Claims
Officer, the Mission recognized the need to address the issue immediately and
hired one employee who could spend the majority of her time on the task, in
addition to handling the duties of the Resource Manager position. The Mission’s
action resulted in the resolution of commodity loss and claim reports valued at
approximately $1.2 million.2 However, several loss and claim reports dating back
to 1993 remained unresolved. The Acting Loss/Claims Officer stated that

2
    The amount was not audited.
                                                                                 7
considering the timeframe involved, the process has not been easy, mainly due to
a lot of turnover at CRS and difficulty in finding supporting documents for claims
established.

The cause of the backlog of unresolved commodity losses was attributed to
FHA’s decreased monitoring of CRS’ commodity loss and claim reports. Due to
the severity and magnitude of the drought that hit Ethiopia at the end of 1999, the
Mission focused its efforts and resources on implementing Title II’s emergency
program, which increased in funding from $78 million in 1999 to $301 million in
2000 and to $488 million in 2003.3 According to the Acting Loss/Claims Officer,
this tremendous increase in funding necessitated the dedication of more staff time
and effort to undertake the added responsibility. The emergency responsibilities
have also meant reduced monitoring of development assistance programs in favor
of the emergency program. It also had a negative impact on FHA’s monitoring of
CRS’ commodity losses dating back to 1993. As a result, a backlog of
commodity loss and claim reports totaling approximately $89,153 has remained
open for years (see Appendix III).4 Consequently, these reports were not resolved
in a timely manner.

Adequate and regular review and follow-up of commodity loss and claim reports
help guarantee the timely resolution of commodity losses. It is a structured
monitoring process that the Mission can implement to prevent further backlog of
unresolved commodity losses. Therefore, we recommend the following:

           Recommendation No. 1: We recommend that USAID/Ethiopia
           develop and implement a plan of action to pursue the
           unresolved commodity loss and claim reports dating back to
           1993, and make a determination and collect, as appropriate,
           $89,153 due to the United States Government associated with
           commodity losses incurred by Catholic Relief Services.


Monitoring of REST’s Commodity Loss
and Claim Reports Needs to Be Increased

Contrary to 22 CFR 211, REST had not been submitting and processing its
commodity loss and claim reports in accordance with the regulations.
Additionally, tests of validation of the Mission’s and REST’s commodity loss
tracking schedules identified discrepancies between the two schedules. These
problems occurred because the Mission did not adequately and regularly monitor
and review REST’s commodity loss and claim reports. As a result, both the
Mission’s and REST’s commodity loss tracking schedules were incomplete and
inaccurate, and the status of the commodity loss and claim reports unknown.




3
    The amounts were not audited.
4
    The amount was not audited.
                                                                                 8
22 CFR 211.9 states:

       Reasonable attempts to collect the claim shall not be less than the
       follow-up of initial billings with three progressively stronger
       demands at not more than 30-day intervals. If these efforts fail to
       elicit a satisfactory response, legal action in the judicial system of
       the cooperating country should be pursued…The cooperating
       sponsor shall provide the USAID or Diplomatic Post a quarterly
       report regarding any loss, damage or misuse of commodities,
       monetized proceeds or program income. The report must be
       provided within 30 days after the close of the calendar quarter and
       shall contain the following information except for commodity
       losses less than $500: who had possession of the commodities…;
       who, if anyone, might be responsible for the loss, damage or
       misuse; the kind and quantity of commodities; the size and type of
       containers; the time and place of loss, damage or misuse; the
       current location of the commodities…; the action taken by the
       cooperating sponsor with respect to recovery or disposal; and the
       estimated value of the loss, damage or misuse.

REST had not been submitting its commodity loss and claim reports within 30 days
after the close of the calendar quarter. This was evidenced by the fact that the
Mission’s commodity loss tracking schedule contained a statement that read,
“Losses by REST have not been filed until lately.” This statement was supported by
a letter, dated July 17, 2003, from FHA requesting REST to submit loss reports
using appropriate formats. Furthermore, REST’s commodity status reports did not
reflect the commodity losses that it had reported to the Mission.

Also, REST had not been processing its commodity loss and claim reports in
accordance with 22 CFR 211. The review of REST’s commodity loss and claim
reports showed that REST had not been sending the required demand letters to the
parties responsible for the losses. When REST was asked to submit copies of the
demand letters, they could only produce one such letter.

Furthermore, the validation of the Mission’s commodity loss tracking schedule
against that of REST’s identified discrepancies between the two schedules. Table 1
lists these discrepancies:




                                                                                9
Table 1: Discrepancies Identified Between USAID/Ethiopia’s and REST’s
Commodity Loss Tracking Schedules

                      BILL OF                      ESTIMATED          RESULTS OF
     CLAIM NO.       LADING NO.   COMMODITY          VALUE5        VALIDATION TESTS

    07-RES-2001    1MEMPMEK 001   Vegetable oil         $1,411   Estimated value is different
                                                                 from Claim No.04-RES-
                                                                 2000, but this is the correct
                                                                 claim for this bill of lading.
    04-RES-2000    1MEMPMEK 001   Vegetable oil         $1,445   Duplicate of Claim No. 07-
                                                                 RES-2001 in
                                                                 USAID/Ethiopia’s tracking
                                                                 schedule
    05-RES-2001    A1002          Wheat                 $9,020   Estimated value is different
                                                                 from Claim No.03-RES-01,
                                                                 but this is the correct claim
                                                                 for this bill of lading.
    03-RES-01      A1002          Wheat                $10,620   Duplicate of Claim No. 05-
                                                                 RES-2001 in
                                                                 USAID/Ethiopia’s tracking
                                                                 schedule
    09-RES-2002    LC-AID-1       Wheat                 $1,824   Loss report recorded in
                                                                 USAID/Ethiopia’s tracking
                                                                 schedule, but not in REST’s
    014-RES-2002   JAC-AID-1      Vegetable oil         $1,852   Loss report recorded in
                                                                 USAID/Ethiopia’s tracking
                                                                 schedule, but not in REST’s
    012-RES-2002   01 (sic)       Wheat(damaged)       $11,141   Loss report recorded in
                                                                 USAID/Ethiopia’s tracking
                                  (shortage)           $23,529   schedule, but not in REST’s;
                                                                 Report of Loss showed this
                                                                 was a maritime loss


The problems discussed above occurred because the Mission did not adequately and
regularly monitor and review REST’s commodity loss and claim reports. In the
case of REST, the responsible official delegated the task of maintaining the
commodity loss and claim schedule to an employee without supervising or
reviewing that employee’s work. Consequently, both the Mission and REST
could not rely on their commodity loss tracking schedules because the schedules
were incomplete and inaccurate.

Based on the review of the available commodity loss reports submitted by REST
to the Mission, REST’s commodity losses for the period 2000 to 2002 amounted
to approximately $31,518. Furthermore, the status of the commodity loss and
claim reports could not be determined because REST did not follow the
procedures relating to the processing and filing of claims for commodity losses as
contained in 22 CFR 211.

Regularly scheduled and adequately performed monitoring activities are good
management tools that the Mission can use to help ensure that food aid
commodities reach their intended beneficiaries in accordance with existing
agreements. Additionally, this formal monitoring process will assist the

5
    Amounts were not audited.
                                                                                             10
cooperating sponsors in complying with relevant laws and regulations.
Therefore, we recommend the following:

       Recommendation No. 2: We recommend that USAID/Ethiopia
       develop and implement a plan of action to increase its
       monitoring of Relief Society of Tigray’s processing and filing
       of commodity loss and claim reports, and to verify the
       accuracy and completeness of Relief Society of Tigray’s
       commodity loss and claim reports.

       Recommendation No. 3: We recommend that USAID/Ethiopia
       make a determination and collect, as appropriate, $31,518 due
       to the United States Government associated with commodity
       losses incurred by Relief Society of Tigray.

       Recommendation No. 4: We recommend that USAID/Ethiopia
       revise its commodity loss tracking schedule to exclude
       duplicate claim numbers 04-RES-2000 and 03-RES-01 and that
       it indicate the status of all the loss claims for monitoring
       purposes.


Monitoring of CRS’ and REST’s Warehouses
and Distribution Centers Needs to Be Resumed

Contrary to 22 CFR 211, the Mission did not regularly monitor the
conditions in CRS’ and REST’s warehouses and distribution centers. This
occurred because the Mission temporarily stopped conducting site visits to
the cooperating sponsors’ warehouses and distribution centers beginning in
October 2001. As a result, conditions in some of CRS’ and REST’s
warehouses and distribution centers could put the food commodities at risk
of going to waste. In addition, one warehouse did not comply with
commodity reporting requirements because it did not maintain a perpetual
system of inventory records.

22 CFR 211.10(c), Inspection and Audit, implies that U.S. Government
representatives, along with the cooperation and assistance of the cooperating
sponsors, should inspect commodities in storage or the facilities used in the
handling or storage of commodities.

22 CFR 211.5(a) requires that cooperating sponsors ensure that “…adequate
storage facilities will be available in the recipient country at the time of
arrival of the commodity to prevent spoilage or waste of the commodity.”

22 CFR 211.10(a) requires that “cooperating sponsors and recipient agencies
shall maintain records and documents in a manner which accurately reflects
the operation of the program and all transactions pertaining to the receipt,
storage, distribution, sale, inspection and use of commodities...”

                                                                                11
To complement 22 CFR 211.10(a), Principle III-2 of Food Aid
Management’s Generally Accepted Commodity Accountability Principles
(Draft) states that “commodity management organizations should maintain a
perpetual system of inventory records at all management levels to record and
report commodity receipts, issues, and adjustments to inventory.”

Site visits were conducted to CRS’ and their implementing partners’ as well
as REST’s warehouses and distribution centers to observe and review the
storage and management of non-emergency food aid commodities.




Photograph of a sister from the Missionaries of Charity (MOC) with a RIG/Pretoria
auditor inside the MOC warehouse in Dire Dawa, Ethiopia. The MOC is one of
CRS’ implementing partners in the distribution of Title II non-emergency food aid
commodities. (August 2003)

At CRS, the review covered non-emergency commodities distributed under
the general relief program while at REST the review focused on the food for
work program.




                                                                                    12
Photograph of stone bunds, one of the projects built by the beneficiaries of REST’s
food for work program in Degua Tembien, Ethiopia. Stone bunds prevent soil
erosion. (August 2003)

The deficiencies identified from the site visits showed that the Mission did
not monitor the conditions in the cooperating sponsors’ warehouses and
distribution centers. The following conditions were observed at the sites
indicated:

      •    CRS warehouses in Dire Dawa – The inspection conducted at
           two warehouses revealed rodent droppings near the broken and
           torn bags of corn-soya blend.
      •    Organization of Social Services and HIV/AIDS distribution
           center in Nazareth – The distribution center employee did not
           maintain a perpetual system of inventory records.
      •    REST central warehouse in Mekelle – The REST official said
           that water seeped under the steel doors when it rained.
      •    REST warehouse and distribution center in Hagereselam, Degua
           Tembien – Two pigeons were inside the warehouse during the
           site visit. A ripped screen covering one of the windows allowed
           the pigeons to fly in and out of the warehouse.
      •    REST warehouse and distribution center in Edaga Arbi, Were
           Lehe – Bags of wheat were not stacked properly to allow access
           all around for easy inspection, pest control and air circulation.
      •    REST warehouse and distribution center in Rama, Mereb Lehe –
           Three mounds of food aid commodities covered with
           waterproofed material were stored outside the warehouse,
           which, according to the REST official, had structural problems.
      •    REST warehouse and distribution center in Hahaile, Enticho,
           Ahferom –Holes where the beams that support the roof pass
           through the walls were big enough for birds and insects to enter
                                                                                      13
                      the warehouse. Additionally, there were rodent droppings on
                      the floor.

             The conditions described above went uncorrected because the Mission
             temporarily stopped conducting site visits to CRS’ and REST’s warehouses and
             distribution centers beginning in October 2001. According to FHA’s Food
             Program Monitor, during that time the FHA staff was busy reviewing the
             cooperating sponsors’ Development Assistance Proposals, which were due in
             Washington, D.C. by March 2002. After that, the staff went back to
             implementing Title II’s emergency program to address the drought problem in
             Ethiopia (see page 7, CRS Commodity Loss and Claim Reports Dating Back to
             1993 Need to Be Resolved).

             If the above conditions remain uncorrected, they could result in the food aid
             commodities being spoiled or wasted due to rodent and insect infestation, water
             seepage, or condensation in the case of the commodities that were improperly
             stacked. Regarding the warehouse in Nazareth that did not maintain a perpetual
             system of inventory records, CRS’ financial records did not reflect the current
             status of commodity inventory balances, issuances and value.

             In summary, USAID/Ethiopia did not monitor the conditions in CRS’ and REST’s
             warehouses and distribution centers on a regular basis because the Mission
             temporarily stopped conducting site visits beginning in October 2001. This
             resulted in conditions where food aid commodities could become spoiled or
             wasted through infestation, water seepage, or condensation. Therefore, we
             recommend the following:

                    Recommendation No. 5: We recommend that USAID/Ethiopia
                    develop and implement a plan of action to resume site visits to
                    the warehouses and distribution centers managed by Catholic
                    Relief Services and Relief Society of Tigray, and correct the
                    weaknesses noted in their warehouses and distribution centers.


             At the end of the site visits, the responsible REST officials said that they had
             enrolled three of their officials to attend the Food Aid Rules and Regulations
             workshop to be held in Addis Ababa, Ethiopia, from December 1 to 5, 2003. The
             workshop will be facilitated by the Association of Private Voluntary
             Organizations Financial Managers, which is based in Norwalk, Connecticut.



Management   In response to the draft report, USAID/Ethiopia concurred with all five
Comments     recommendations contained in the report. The Mission included corrective action
             plans and target completion dates for all five recommendations. Therefore, we
and Our
             consider that management decisions have been reached on all five
Evaluation   recommendations upon final report issuance.


                                                                                          14
                                                                                       Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General, Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. The audit was one of a series
              of worldwide audits led by the Office of Inspector General’s Performance Audits
              Division (IG/A/PA) in Washington, D.C. The audit was conducted to determine
              if USAID/Ethiopia, through its monitoring and oversight activities, ensured that
              P.L. 480 Title II non-emergency assistance programmed for direct food aid
              distribution programs was delivered to the intended beneficiaries in accordance
              with existing agreements. The audit covered the review of Title II non-
              emergency food aid commodities delivered to the intended beneficiaries under the
              general relief and food for work programs in fiscal year 2002 and the first 11
              months of fiscal year 2003. Regarding the commodity loss and claim reports, we
              included in our review commodity losses dating back to 1993, which remained
              unresolved at the time of our fieldwork, to determine if the causes for the
              commodity losses denoted that possible abuse or illegal acts were committed.

              In planning and performing the audit, we judgmentally selected two out of seven
              cooperating sponsors, which distributed approximately $13 million in non-
              emergency food commodities in fiscal year 2002, for review. Selection criteria
              used was the value of commodities shipped to and the type of program
              implemented by the cooperating sponsors in fiscal year 2002. We selected
              Catholic Relief Services (CRS) because it received $4.2 million of food aid
              commodities under the general relief program. Relief Society of Tigray (REST)
              was selected on the basis of the $4.2 million of food aid commodities that it
              received under the food for work program. We tested and assessed the Mission’s,
              CRS’ and REST’s significant management controls over the receipt, delivery,
              storage, and distribution of Title II commodities. In this regard, we examined
              documents such as annual estimate of requirements, call forwards, commodity
              and recipient status reports, commodity loss reports and tracking schedules,
              reporting of results data, and the systems in place for tracking the receipt, storage,
              delivery and distribution of food aid commodities.

              We conducted the audit at USAID/Ethiopia, located in Addis Ababa, Ethiopia,
              from July 28 to August 27, 2003. Fieldwork included site visits to CRS’ and
              REST’s warehouses and distribution centers in Dire Dawa, Nazareth, Mekelle,
              Degua Tembien, Were Lehe, Mereb Lehe, and Ahferom, Ethiopia.


              Methodology

              To answer the audit objective, we obtained and reviewed relevant P.L. 480 Title II
              program documents such as development assistance program proposals, annual
              estimate of requirements, call forwards, commodity status and recipient reports, and
              commodity loss reports.         Furthermore, we reviewed waybills and other
              transportation records, inventory records, and commodity distribution records in
              relation to our review of controls over the receipt, storage, and delivery of food aid
                                                                                                 15
commodities. We also reviewed monitoring reports prepared by the Mission, CRS
and REST. Additionally, we tested the Mission’s, CRS’ and REST’s management
controls over commodity losses by validating the Mission’s commodity loss tracking
schedule against CRS’ and REST’s commodity loss tracking schedules.

During the site visits to CRS’ and REST’s country offices, we assessed the
management controls by reviewing the organizational charts, position descriptions,
and commodity loss reports. Furthermore, we reviewed the documents, records, and
forms used by cooperating sponsors to maintain accountability over program
commodities as they move from port to warehouse to distribution center and,
ultimately, to beneficiary. We also reviewed documentation on beneficiary
participation and commodity distribution to identify any problems relating to food
aid distribution that might exist. Lastly, we interviewed responsible Mission, CRS,
and REST officials and staff.

For criteria, we used Title 22 of the Code of Federal Regulations, Section 211; Food
Aid Management’s Generally Accepted Commodity Accountability Principles
(Draft); the General Accounting Office’s Standards for Internal Control in the
Federal Government; and USAID’s Automated Directives System Series 200,
Programming Policy.

A defined materiality threshold for this audit was not relevant because the audit
focused on the adequacy of the Mission’s monitoring of the P.L. 480 Title II non-
emergency food aid program.




                                                                                 16
                                                                                                 Appendix II


Management                                    UNITED STATES
Comments                         AGENCY FOR INTERNATIONAL DEVELOPMENT
                                          MISSION TO ETHIOPIA

                                                                                                 Riverside Building
                                                                                Off Olympia/Haile G. Selasie Avenue
                                                                                                      P.O. Box 1014
                                                                                                       Addis Ababa
                                                                                                  Tel: 251-1-510088
                                                                                                 Fax: 251-1-510043


             MEMORANDUM

             For:            Regional Inspector General/Pretoria, Jay Rollins

             From:           USAID/Ethiopia Director, William Hammink /s/

             Subject:        USAID/Ethiopia Comments on the October 10, 2003 Draft Audit Report
                             of Ethiopia’s P.L. 480 Title II Non-Emergency Assistance in Support of
                             Its Direct Food Aid Distribution Program


             During July and August of 2003, the Office of the Inspector General conducted a world
             wide audit of USAID’s monitoring of Title II non-emergency assistance in support of its
             direct food aid distribution program. The audit was conducted to answer the question:
             “Did USAID/Ethiopia, through its monitoring and oversight activities, ensure that P.L.
             480 Title II non-emergency assistance programmed for direct food aid distribution
             programs was delivered to the intended beneficiaries in accordance with existing
             agreements?”

             The purpose of this memo is to comment on your draft report on the subject audit. The
             audit findings were summarized as follows:

             “Through its monitoring and oversight activities, USAID/Ethiopia generally ensured that
             Title II non-emergency food aid was delivered to the intended beneficiaries in accordance
             with existing agreements. To maintain accountability over food commodities and help
             ensure that they reached the intended beneficiaries, Mission staff conducted periodic site
             visits to the cooperating sponsors’ warehouses and distribution centers. Additionally, the
             Mission staff reviewed relevant documents such as commodity/recipient status reports
             and commodity loss reports. Furthermore, they held monthly meetings with the
             cooperating sponsors to discuss issues relating to Title II programs. Mission staff also
             interviewed beneficiaries to get their opinion on matters such as food-ration size,
             distribution process, and misuse of commodities.”

             However, the audit identified activities where monitoring could be improved. Areas
             suggested for improvement are listed in bold below and a description of action taken or




                                                                                                               17
actions planned by USAID and the relevant cooperating sponsor is provided under each
area suggested for improvement.


Catholic Relief Services’ (CRS) Commodity loss and claim reports dating back to
1993 need to be resolved.

•      Recommendation No. 1: We recommend that USAID/Ethiopia develop
       and implement a plan of action to pursue the unresolved commodity loss
       and claim reports dating back to 1993, and make a determination and
       collect, as appropriate, $89,153 due to the United States Government
       associated with commodity losses incurred by Catholic Relief Services.

The report explains that “USAID/Ethiopia did not regularly follow up on and resolve
CRS’ commodity loss and claim reports dating back to 1993...” “In 2001,…the Mission
recognized the need to address the issue immediately and hired one employee who could
spend the majority of her time on the task… The Mission’s action resulted in the
resolution of commodity loss and claim reports valued at approximately $1.2 million.”

Mission Position: The Mission concurs with the recommendation.

Explanation/Course of Action: Resolving CRS’s commodity loss and claim reports
remains a priority for USAID/Ethiopia’s Food and Humanitarian Assistance Office.
Since the receipt of the draft audit report on October 10, 2003, the USAID/Ethiopia Food
for Peace Officer and Commodity Manager have met with CRS management to discuss
this issue and to put an action plan in place to resolve outstanding claims.

At the first meeting between CRS and USAID/Ethiopia staff, discussions revealed that
waiver requests had been submitted for all outstanding claims against which CRS has
been unable to receive compensation for losses. The waiver requests had previously been
reviewed by the RLA who had identified missing documentation or insufficient
explanation for each waiver request. The RLA explained at a subsequent meeting with
USAID/Ethiopia staff that at the time of the audit, the missing documentation required to
issue waivers had not yet been produced by CRS. The USAID Regional Legal Advisor
specified the requirements for waiver requests and explained in detail specific gaps in
their previous requests.

The USAID/Ethiopia Commodity Manager has developed an action plan to resolve the
outstanding CRS claims. First, the Commodity Manager is working with CRS to again
review relevant documentation to compile a list of missing documents and actions
concerning the loss and claim reports. CRS has promised to resubmit each waiver
request with sufficient and complete supporting documentation by December 31, 2003.
Following CRS’s submission, the Commodity Manager will work with the RLA to fully
document and approve waivers as appropriate and submit them to the USAID Mission
Director. The above mentioned actions will enable USAID/Ethiopia to resolve all
outstanding claims.




                                                                                            18
Expected Closure: The Mission expects CRS to submit all relevant claims paperwork by
December 31, 2003. The Mission expects that claims will be resolved by March 31
2003.


Monitoring of Relief Society of Tigray’s (REST) commodity loss and claim reports
needed to be increased.

•      Recommendation No. 2: We recommend that USAID/Ethiopia develop
       and implement a plan of action to increase its monitoring of the Relief
       Society of Tigray’s processing and filing of commodity loss and claim
       reports, and verify the accuracy and completeness of the Relief Society of
       Tigray’s commodity loss and claim reports.

Mission Position: The Mission concurs with the recommendation.

Explanation/Course of Action: Upon receipt of the draft audit report on October 10,
2003, USAID/Ethiopia communicated the audit recommendations to REST and discussed
issues of timely and accurate submission of loss and claim reports and commodity status
reports. REST subsequently submitted an action plan for their commodity managers at
headquarters to provide on-the-job training to warehouse personnel and food monitors to
enhance their competence in warehouse management, commodity accounting and
inventory, quality control, familiarization with USAID 22 CFR 211 guidelines and
management of commodity status, recipient status and loss and claim reports. In addition
to the in house on-the-job training, three members of their headquarter management team
will attend a Food Aid Rules and Regulations workshop, facilitated by the Association of
Private Voluntary Organization Financial Managers (APVOFM), to be held in Addis
Ababa from December 1-5, 2003. which will address commodity loss and claim
management. REST has also agreed to review and evaluate commodity records to
provide the current status of commodity inventory reports and to evaluate their
commodity tracking system.

USAID/Ethiopia’s Commodity Manager is in the process of reviewing REST’s past
commodity loss and claim reports to verify their accuracy. This exercise is expected to
be completed by December 31, 2003. Furthermore, USAID plans to increase its future
monitoring of REST’s processing and filing of commodity loss and claim reports. To
increase this monitoring, USAID/Ethiopia commodity management staff will regularly
monitor REST’s future submissions with more attention to detail. In addition,
USAID/Ethiopia commodity management staff will arrange monthly meetings with
REST to review loss and claim reports, to evaluate their commodity tracking and
accounting systems, and to identify actions required. Monthly meetings will begin in
January 2004 after the review of past loss and claim reports has been completed.




                                                                                           19
Expected Closure: A plan of action to increase monitoring of Relief Society of Tigray’s
processing and filing of commodity loss and claim reports will be implemented by
January 31, 2004.


       •    Recommendation No. 3: We recommend that USAID/Ethiopia make a
            determination and collect, as appropriate, $31,518 due to the United
            States Government associated with commodity losses incurred by Relief
            Society of Tigray.

Mission Position: The Mission concurs with the recommendation.

Explanation/Course of Action: USAID/Ethiopia has communicated to REST the
immediate need to make a determination and collect $31,518 due to the United States
Government associated with commodity losses incurred by REST. REST has agreed to
review its outstanding losses and claims and will submit required paperwork for their
collection or waiver by December 31, 2003. The USAID/Ethiopia commodity manager
will work with REST to ensure that all relevant documentation accompanies any waiver
requests submitted to USAID.

Expected Closure: The Mission expects REST to submit all relevant claims paperwork
by December 31, 2003. The Mission expects that claims will be resolved by March 31,
2004.


       •    Recommendation No. 4: We recommend that USAID/Ethiopia revise its
            commodity loss tracking schedule to exclude duplicate claim numbers 04-
            RES-01 and 03-RES-01 and that it indicate the status of all the loss claims
            for monitoring purposes.

Mission Position: The Mission concurs with the recommendation.

Explanation/Course of Action: The USAID/Ethiopia Commodity Manager is currently
reviewing all documentation to verify the accuracy of the submitted loss and claim
reports. REST has resubmitted an amended loss and claim report tracking schedule for
FY 2000-2002 which rectifies duplicate loss reports. USAID has also corrected duplicate
loss reports in its system. USAID will revise its tracking system to include a column to
indicate the status of all loss claims.

Expected Closure: USAID/Ethiopia has already revised it commodity loss tracking
schedule to exclude duplicate claim numbers 04-RES-01 and 03-RES-01.
USAID/Ethiopia expects to revise its commodity loss tracking schedule to indicate the
status of all the loss claims for monitoring purposes by January 31, 2004.




                                                                                           20
Monitoring of CRS’ and REST’s warehouses and distribution centers needed to be
resumed.

       •    Recommendation No. 5: We recommend that USAID/Ethiopia develop and
            implement a plan of action to resume site visits to the warehouses and
            distribution centers managed by Catholic Relief Services and Relief Society
            of Tigray, and correct the weaknesses noted in their warehouses and
            distribution centers.

Mission Position: The Mission concurs with the recommendation.

Explanation/Course of Action: The audit report explains that “regularly scheduled and
adequately performed monitoring of activities are good management tools…” However,
due to the drought emergency in Ethiopia and the massive increase in Title II emergency
food commodities reaching over 1 million MT for CY 03, USAID focused much of its
commodity management on emergency food. The Mission strongly believes that
monitoring of non-emergency development program activities is equally important and
focus in this area will be increased.

The Mission has developed the following plan of action to place development food aid
monitoring activities back on track. First, the Mission is currently interviewing
candidates for two food monitor positions. Subsequent to the hiring and training of the
new monitors, the USAID/Ethiopia Food and Humanitarian Assistance Office will
schedule warehouse visits of each cooperating sponsor every three months to ensure
proper management of food commodities and distribution of commodities to intended
beneficiaries. Food and warehouse monitoring will be substantially improved with the
planned (February 2004) implementation of a Lot Quality Assurance Sampling (LQAS)
monitoring system which will track commodity management monitoring indicators
through its statistical sampling conducted on handheld computers.

Upon receiving the draft audit recommendations, both CRS and REST submitted their
own plan of action to rectify commodity management and warehousing problems
identified in the report. REST recognizes the need for warehouse upgrading and has
planned to repair and maintain warehouses in Mekelle and other program areas. The
planned warehouse upgrading will both expand the current capacity and increase its
quality. Repair and maintenance of warehouses is scheduled to be completed by the end
of November 2003. As mentioned under recommendation 2, REST will begin on-the-job
training in warehouse management and will send three senior staff members to a training
that will discuss proper warehouse management.

Likewise, CRS is planning on-the-job training for warehouse staff to improve warehouse
management results. Three senior CRS food monitors assigned to Dire Dawa, Tigray,
SNNPR and Oromiya regions will travel to CRS warehouses to provide warehouse
managers with training on store handling systems, commodity accounting, control ledger
procedures, quality control, pest control, disposal of unfit commodities, and commodity
status and recipient status reports (CSR and RSR) management. CRS is planning to




                                                                                          21
improve their in house food monitoring by scheduling more supervisory visits to
distribution and warehouse sites of their implementing partners.

Expected Closure: USAID/Ethiopia will implement its plan of action to resume site
visits to the warehouses and distribution centers managed by CRS and REST by February
1, 2004, after the hiring and training of new food monitors currently in process.




                                                                                        22
                                                                                        Appendix III


 Catholic Relief Services’ Commodity Loss and Claim Reports Dating Back to 1993

                          LOSS                               ESTIMATED
  LOSS REPORT NO.        REPORT             COMMODITY          VALUE             NATURE OF LOSS
                          DATE                                  (USD)
                                                             [Not Audited]
  261/93/ILTL3         03/24/93      Wheat grain                    $8,696   Short delivery

  325/93/ILTL1         05/26/93      Wheat grain                    $9,740   Bags spoiled by rain water

  326/93/ILTL1         05/26/93      Wheat grain                    $1,460   Rain water and short
                                                                             delivery
  327/93/ILTL          05/26/93      Wheat grain                    $4,180   Infestation

  77/96/PTL1           06/03/96      CSB (corn-soya blend)          $5,296   Port interior

  41/97/PTL2           02/28/97      Wheat grain                     $686    Port interior

  50/97/PTL1           02/28/97      Rice                           $4,231   Port interior

  51/97/PTL1           02/28/97      Pinto beans                    $2,506   200 bags missing

  52/97/PTL1           02/28/97      Vegetable oil                  $1,520   Port interior

  53/97/PTL1           02/28/97      CSB                            $5,721   Port interior

  54/97/PTL1           02/28/97      CSB                            $3,922   Port interior

  29/98/PTL3           04/28/98      Bulgur wheat                   $1,393   Missing

  57/98/PTL3           07/27/98      Wheat grain                     $952    Port interior

  92/99/WHL2           06/30/99      Wheat grain                    $1,088   Reconstitution

  93/99/WHL2           06/30/99      Wheat grain                     $558    Reconstitution

  97/99/WHL2           06/30/99      Wheat grain                     $559    Reconstitution

  103/99/PIL2          06/30/99      Vegetable oil                  $7,303   Port interior

  33/2000/WHL2         03/07/00      Wheat grain                    $2,790   Reconstitution

  36/2000/WHL2         03/07/00      CSB                             $604    Reconstitution

  91/2000/WHL2         03/02/00      CSB                          $22,492    Infestation

  53/2001/WHL2         01/17/01      Vegetable oil                   $502    Leakage

  89/2001/WHL2         03/26/01      Bulgur wheat                    $660    Torn bags

  16/2002/WHL1         01/15/02      CSB                             $972    Infestation

  36/2002/CTR1         07/25/02      Vegetable oil                   $778    Spilling

  35/2002/CTR3         06/14/02      Wheat grain                     $544    Infestation

                                              Total:               $89,153

Source: USAID/Ethiopia’s Tracking Schedules (Year 1993-2001 and Year 2002)
                                                                                                      23
